No. 20-209

 

 

IN THE
Supreme Court of the United States

ALI GADELHAK,
Petitioner,

v.

AT&T SERVICES, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

BRIEF FOR THE RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
933 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 21, 2020.

Colin Casey an
Wilson-Epes Printing Co., Inc.
